BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that an original and 2 copies of the foregoing Reply in
Support of Emergency Application to Stay in Bradley Little et al. v. Reclaim Idaho et. al, were
sent via Two Day Service to the U.S. Supreme Court, and 1 copy was sent via Two Day Service
and email to the following parties listed below, this 22nd day of July, 2020:
Craig H. Durham
Deborah A. Ferguson
Ferguson Durham, PLLC
223 N. 6th Street, Suite 325
Boise, ID 83 702
(208) 484-2253
chd@fergusondurham.com
daf@fergusondurham.com

Counsel for Respondents
Lawrence G. Wasden
Attorney General State of Idaho
Brian Kane
Assistant Chief Deputy
Megan A. Larrondo
Deputy Attorney General
Robert A. Berry
Deputy Attorney General
954 W. Jefferson - 2nd Floor
P. 0. Box 83720
Boise, ID 83720-0010
Tel: (208) 334-4541
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov

Counsel for Applicants
II
II
II
II
BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 22, 2020.

D~.Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

